Special Report - Bombs in Brooklyn - Table of Contents
USDOJ/OIG Special Report
Bombs in Brooklyn:
How the Two Illegal Aliens Arrested for
Plotting to Bomb the New York Subway Entered
and Remained in the United States
March, 1998
Table of Contents
(After reading the selection use your browser's GO/BACK feature to return here)
Executive Summary
I. Introduction
A. Press accounts
B. Reaction to the press accounts
C. The OIG investigation and report
II. Gazi Ibrahim Abu Mezer
A. Mezer's background and application for a
Canadian visa
B. Mezer's arrival in Canada and application
for a U.S. visa
C. Mezer's application for Canadian refugee
status
D. Mezer's initial attempts to enter the United
States
1. Canadian information
2. Two apprehensions of Mezer, June 1996
a. Conditions in the INS' Blaine Sector
b. Mezer's first apprehension in the United
States, June 23, 1996
i. Mezer's Arrest
ii. Return to Canada
c. Mezer's second apprehension in the United
States, June 29, 1996
E. Third apprehension of Mezer in the United
States, January 14, 1997
1. The apprehension
2. The arrest forms
F. Mezer's deportation proceedings
1. Initial bond
2. The first hearing
3. Canada's refusal to accept Mezer
4. Reduction of Mezer's bond
5. Mezer's release
6. Mezer's asylum application
7. The April 7th hearing
8. Information from the Department of State
regarding Mezer's asylum application
9. Rescheduling of Mezer's asylum hearing
10. Withdrawal of Mezer's asylum application
11. The June 23rd hearing
12. Motion after Mezer's arrest in Brooklyn
G. Conclusions
III. Lafi Khalil
A. Khalil's C-1 visa
1. Khalil applies for a U.S. visa
2. The visa requirement
3. The C-1 visa
B. Khalil enters the United States
C. Conclusions
APPENDIX
Executive Summary
I. Introduction
In this report, the Department of Justice Office of the Inspector General (OIG)
examines how two aliens, Gazi Ibrahim Abu Mezer (Mezer) and Lafi Khalil (Khalil), entered
and remained in the United States before they were arrested on July 31, 1997, in a
Brooklyn apartment for allegedly planning to bomb the New York City subway system. After
their arrest, it was quickly discovered that both were Palestinians who were in the United
States illegally. Mezer had been arrested three times in the previous thirteen months
attempting to enter the United States illegally from Canada. The first two times, he was
voluntarily returned to Canada. After the third apprehension, the Immigration and
Naturalization Service (INS) began formal deportation proceedings against Mezer, but he
was released on bond while the proceedings were pending. After his release, Mezer filed a
political asylum application in which he claimed that he suffered a fear of persecution if
he were returned to Israel, in part because Israeli authorities falsely believed he was a
member of the terrorist organization Hamas. It was also discovered that Khalil was in the
United States illegally, having entered on a tourist visa but having remained here after
the visa expired.
These disclosures generated harsh criticism in the media regarding how the INS handled
these immigration cases. As a result of the controversy, the OIG conducted this review
focusing on how Mezer and Khalil came to enter and remain in the United States. Our review
details the actions by the INS and other federal agencies that came in contact with them.
During our review, we examined documents relating to their contacts with immigration
authorities, including Border Patrol records concerning Mezer's detentions, the
transcripts of his deportation proceeding, and materials related to Khalil's visa. We
interviewed numerous INS and government officials regarding these contacts, including the
Border Patrol officials who detained Mezer three times, the INS officials who handled his
deportation proceedings, the INS judges who presided over the deportation hearings, the
State Department official who granted the visa to Khalil, and the INS immigration
inspector who admitted Khalil to the United States. In total, we conducted more than 75
interviews of individuals involved in these matters. Because Mezer and Khalil currently
are awaiting trial on criminal charges relating to the alleged plot to bomb the New York
subways, we did not touch on certain sensitive issues relating to their criminal charges,
but instead focused on the facts surrounding their immigration status.
II. Mezer
Mezer, who was born in the West Bank of Israel, claimed Jordanian nationality on a
travel document that he received from the Israeli government in 1993. In 1993, he received
a Canadian visa to study in Canada. Shortly after arriving in Toronto, Canada, he applied
for convention refugee status, which is similar to political asylum in the United States,
based on his claimed fear of persecution in Israel. This application for convention
refugee status allowed him to remain in Canada despite two criminal convictions in Canada.
Mezer later admitted that he traveled to Canada with the intent to reach the United
States. Less than two weeks after arriving in Canada, he applied for a visa at the U.S.
Consular Office in Toronto, but his application was denied. He also reported that he
unsuccessfully attempted to enter the United States illegally while in Toronto.
On June 23, 1996, while attempting to enter the United States illegally, Mezer was
detained by the National Park Service along with another person, Jamal Abed, in a remote
wilderness area in North Cascades National Park in Washington state. After Mezer and Abed
were turned over to the INS Border Patrol, both were returned voluntarily to Canada. INS
officials told us that because of the unavailability of detention space, aliens who are
apprehended attempting to enter the United States illegally from Canada along this stretch
of border are typically returned to Canada voluntarily, as Mezer was, unless there are
unusual circumstances, such as evidence that the alien is an aggravated felon. Aliens are
also rarely prosecuted for the criminal offense of entry without inspection, even after
repeated apprehensions.
Although the National Park Service ranger who arrested Mezer and Abed believed that
Abed was assisting Mezer in entering the United States, the Border Patrol reports
concerning Mezer's arrest suggested that Mezer was suspected of alien smuggling in Canada.
This suggestion appeared to be based on information contained in a Canadian immigration
database about previous, unspecified "suspicious activity" by another man and
Mezer in Manitoba Canada. Although the suspicion that Mezer was an alien smuggler was
included in Border Patrol arrest and intelligence reports, no one in the Border Patrol
could identify a genuine factual basis for this suspicion or how the facts of Mezer's
detention suggested that he was an alien smuggler.
On June 29, 1996, the Border Patrol detained Mezer again trying to enter the United
States illegally, when he was jogging through a park next to a busy port of entry 65 miles
west of where he had been apprehended the previous week. The Border Patrol again
voluntarily returned Mezer to Canada.
Six months later, on January 14, 1997, Mezer was apprehended a third time by a Border
Patrol agent as Mezer was boarding a bus with two other men of Middle Eastern origin in
Bellingham, Washington, 25 miles south of the Canadian border. This time, a Canadian
immigration employee told the Border Patrol agent that Canada probably would not accept
Mezer back. The Border Patrol agent therefore commenced formal deportation proceedings
against Mezer and detained Mezer on a $15,000 bond.
At the first status hearing before an immigration judge in Mezer's deportation case,
Mezer admitted to being in the United States illegally and agreed to return to Canada
again if the Canadians agreed to accept him. When Canada refused his return, Mezer
informed the court at a second hearing on February 6, 1997, that he intended to file an
application for political asylum in the United States. At this hearing, Mezer also
requested a reduction in his bond, which the INS opposed. The immigration judge granted
Mezer's request, reducing his bond to $5,000. The judge told the OIG that this bond amount
was still higher than in typical cases involving illegal entry. Moreover, at this time,
there was no mention that Mezer was suspected of being a member of Hamas. On February 14,
Mezer was released when a friend posted the $5,000 bond for him.
By April 7, 1997, the next status hearing, Mezer had retained an attorney, who
submitted on his behalf an asylum application to the INS and the immigration court. In the
application, Mezer claimed that Israeli authorities had continually persecuted and
detained him when he lived in Israel, in part because they wrongly suspected that he was a
member of Hamas. He denied that he had any association with Hamas but claimed that he
feared continued persecution if he was returned to Israel because of the false suspicion
by the Israeli authorities. Both the INS attorney who handled this hearing, which was
similar to an arraignment, and the immigration judge who presided over it said that they
skimmed Mezer's application at the hearing and they did not notice the reference to Hamas
in the application. But they said that even if they had noticed Mezer's claim that he was
falsely suspected of being a member of Hamas, they would not have sought a change in
Mezer's bond status, because there was no evidence that Mezer in fact was a terrorist.
They also said that it is common for aliens seeking asylum to claim that they are falsely
accused of membership in a terrorist organization to support their claim that they face
the prospect of persecution in their home country.
After the hearing, in accord with normal practice, the immigration court requested
comments from the State Department on Mezer's asylum application. The State Department
returned the application with a sticker indicating it did not have any specific
information about Mezer. We found that it is typical for the State Department to provide
this type of response to the thousands of asylum applications that are forwarded to it
from the immigration judges and INS asylum officers. Although the immigration judge
thought the State Department checked its databases for potential evidence of the
individual's associations with known terrorists and terrorism, the State Department does
not normally perform these individual checks absent a specific request to do so.
Before Mezer's hearing on his asylum application, scheduled for June 23, 1997, Mezer's
attorney withdrew the application, and the hearing was converted to a status hearing. The
attorney told us Mezer withdrew his application because the attorney and Mezer believed
that his refugee status in Canada would prevent him from obtaining asylum in the United
States. Therefore, before the hearing, Mezer called the attorney and told her that he had
returned to Canada.
At the June 23 hearing, Mezer's attorney informed the immigration court that Mezer had
reported to her that he was in Canada. The judge therefore granted Mezer a sixty-day
period for voluntary departure from the United States, after which the formal order of
deportation would become final and Mezer could be deported immediately without any
additional hearings if he were subsequently found in the United States. Before the
sixty-day period elapsed, Mezer was arrested in his Brooklyn apartment on July 31.
Our review did not find information available to the INS that Mezer was a known
terrorist. Nor did we find that government officials acted improperly or contrary to
normal procedures in handling his case. The Border Patrol agents who arrested Mezer in
Washington state made reasonable efforts, consistent with their normal practices, to
return him voluntarily to Canada after the first two arrests. After Mezer's third arrest,
when Canada refused to take him back, the INS detained him and entered him into
deportation proceedings. The INS received no suggestion that Mezer was a member of Hamas
until after he was released on bond, when he filed his asylum application, and that
application stated that he was falsely suspected of being a member of Hamas, not that he
was a member. Thus, Mezer was the sole source of the information that he had a suspected
association with Hamas. We were advised that asylum applicants often make such claims in
an attempt to remain in the United States.
Although we did not find improper actions by any individual officials, our review did
reveal important and systemic problems that are not unique to Mezer's case. His easy entry
into Canada and his ability to remain in Canada despite at least two criminal convictions
and repeated attempts to enter the United States illegally highlight the difficulty in
controlling illegal immigration into the United States. Mezer's case also reveals the
shortage of Border Patrol resources available along the northwest border to halt illegal
immigration. In light of how few Border Patrol agents are assigned to guard this section
of the border on a regular basis, we found it surprising that Mezer was caught once, let
alone three times, trying to enter the United States.
Mezer's case shows that aliens entering the United States illegally along the northwest
border are rarely prosecuted, even after repeated apprehensions. INS and law enforcement
officials normally do not detain such aliens, even after several illegal entries, and they
are normally returned to Canada voluntarily, able to try again at any time to return to
the United States, as Mezer did.
Mezer's case also demonstrates confusion among the affected United States government
agencies as to which agency checks for information about whether an asylum applicant is a
terrorist. The State Department did not conduct such a check on Mezer, although the
immigration court thought that the State Department did so. The INS has access to
databases with some information about suspected terrorists, but it is not clear that the
INS consistently checks these databases before asylum decisions are made, particularly
decisions by INS asylum officers. While we have no evidence that such checks would have
revealed information about Mezer, we believe that his case reveals that the INS and the
State Department need to coordinate more closely on appropriate procedures for accessing
and sharing information that would suggest a detained alien or asylum applicant may be a
terrorist.
III. Khalil
Lafi Khalil was also born on the West Bank of Israel. In 1995, he received a Jordanian
passport and in 1996 obtained a visa to enter Ecuador. On November 25, 1996, he applied at
the U.S. Consular Office in Jerusalem, Israel, for a visa to travel through the United
States to Ecuador.
Khalil's application was handled by a U.S. Consular Officer in Jerusalem, who
interviewed Khalil briefly and granted him a "C-1" transit visa for transit
through the United States on his way to Ecuador, not a tourist visa. According to the
Consular Officer, Khalil said that he wanted to go to Ecuador to visit his uncle. The
Consular Officer believed that Khalil needed a visa to transit through the United States
to Ecuador. The Consular Officer also believed, correctly, that there were no direct
flights to Ecuador from Israel or Jordan, and travel through the United States was often
the cheapest route to Ecuador.
However, the Consular Officer did not check Khalil's representations, require him to
show a ticket to Ecuador, or ask for evidence of sufficient funds for the trip to Ecuador.
Nor did the Consular Officer consider requiring Khalil to transit through the United
States to Ecuador in a "transit without visa" status, which would have allowed
Khalil to go to the United States to catch a connecting flight to Ecuador, as long as
Khalil remained in the airport or in the custody of the airline until boarding the
connecting flight. Instead, the Consular Officer granted Khalil a C-1 visa, based on her
quick interview of Khalil and her belief that he qualified for it. The C-1 visa allowed
Khalil to actually enter the United States, and remain for up to 29 days, while on his way
to Ecuador.
On December 6, 1996, Khalil flew from Amman, Jordan to Amsterdam, where he caught a
flight to John F. Kennedy Airport (JFK Airport) in New York. At JFK Airport, Khalil
presented his passport with the C-1 transit visa to an INS immigration inspector. But the
immigration inspector mistakenly thought that Khalil's passport contained a B-2 visitor's
visa, which allowed Khalil to enter the United States for 6 months rather than 29 days.
The immigration inspector stamped Khalil's passport with the B-2 visa, and after passing
immigration, Khalil caught a flight to Syracuse. There is no record that he ever left the
United States after that, even after his six-month visa expired. He was arrested on July
31, 1997, in a Brooklyn apartment along with Mezer.
When we interviewed the immigration inspector, he said that he did not remember Khalil
specifically but assumed that in the rush of inspecting passengers, he simply made a
mistake about which visa Khalil had in his passport. The inspector said almost 90 percent
of the visas he sees are B-2 visas, and the only distinction between the C-1 and the B-2
visas is a small, type-written entry.
We found that the immigration inspector made a clear mistake in issuing Khalil a
six-month B-2 visa, although the mistake was not intentional. Moreover, Khalil's transit
visa would have allowed him to enter the United States in any event, for up to 29 days. He
could have overstayed even a 29-day transit visa without much chance that the INS would
attempt to locate him or deport him because of the large number of illegal aliens in the
United States.
Some INS officials expressed concern about whether the typical passenger seeking merely
to come to the United States to transit to another country should be granted a C-1 visa,
which allows the alien to enter the United States. They said that if the purpose of the
trip, as Khalil claimed, was merely to catch a flight to another country, the transit
without visa program should be more carefully considered. We agree with this concern and
believe that INS and State Department officials should more carefully consider when
transit without visa travel is appropriate. In this case, the Consular Office did not even
consider this status for Khalil.
Finally, we found during our interviews that there were significant differences of
understanding about various officials' roles in the visa process. Neither the immigration
inspector nor the Consular Officer thought it was his or her role to verify that Khalil
had a ticket to Ecuador or funds for the trip. Neither thought that it was his or her
responsibility to consider restricting the period of Khalil's stay to less than the
maximum amount of time allowed by the visa -- 29 days in the case of a C-1 visa -- even
though Khalil allegedly only wanted to come to the United States to catch a flight to
Ecuador. We believe that this confusion over the appropriate role of each official needs
to be addressed and clarified by the INS and the State Department in the interests of
controlling illegal immigration.
#####